W                                                                          June 17, 1999

TO:              B/Chief Financial Officer
                 H/Associate Administrator for Procurement

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Department of Health and Human Services
                 Billings for Audit Services
                 Assignment Number A9900600
                 Report Number IG-99-027

The subject final report is provided for your use. Your comments on a draft of this report
were responsive to our recommendations. Our evaluation of your responses has been
incorporated into the body of the report. We consider all recommendations closed for
reporting purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360, or Ms. Anh T. Doan, Auditor-in-Charge,
at (818) 354-9773. We appreciate the courtesies extended to the audit staff. The report
distribution is in Appendix G.

[Original signed by]

Russell A. Rau

Enclosure

cc:
G/General Counsel
JM/Management Assessment Division
bcc: AIGA, IG, Reading (w/o Encl.) Chrons
HK/Audit Liaison Representative
JPL/180-300/L. Dear
JPL/180-300/A. Doan
                                                    IG-99-027



AUDIT
                           DEPARTMENT OF HEALTH AND
REPORT                           HUMAN SERVICES
                           BILLINGS FOR AUDIT SERVICES


                                    JUNE 17, 1999




                            OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for Auditing
at 202-358-1232 or visit www.hq.nasa.gov/office/oig/hq/hotline.html#form.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E St., SW
               Washington, DC 20546


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.


Acronyms

CAS            Cost Accounting Standards
DHHS           Department of Health and Human Services
DCAA           Defense Contract Audit Agency
FY             Fiscal Year
OMB            Office of Management and Budget
                              NASA Office of Inspector General

IG-99-027                                                                               JUNE 17, 1999
 A9900600

                       Department of Health and Human Services
                              Billings for Audit Services

Introduction

NASA uses the services of other Federal agencies to perform audits of contractors, educational
institutions, and nonprofit organizations receiving NASA grants and contract awards. In fiscal
years (FY’s) 1997 and 1998, NASA negotiated to reimburse the Department of Health and
Human Services (DHHS) $307,000 and $277,000, respectively, for audit services. DHHS has
proposed $319,000 for similar services in FY 1999. Of 73 DHHS audits billed during FY’s 1997
and 1998, 23 (32 percent) were NASA-requested audits (including 15 proposal audits)1 and 50
were DHHS initiated. In FY’s 1997 and 1998, $281,000 (62 percent) of the $456,000 NASA
paid for audit services was for requested audits. The NASA Office of Procurement requested that
we perform this audit to include comparing the DHHS billings with the Defense Contract Audit
Agency (DCAA) charges to NASA for similar work.

Our overall objective was to evaluate the reasonableness of the DHHS billings to NASA during
FY’s 1997 and 1998. Details on our scope and methodology are in Appendix A.

Finding

The FY’s 1997 and 1998 average proposal audit hours DHHS billed to NASA were 86-
percent (190 actual hours as compared to 102 planned hours) higher than the hours planned in
DHHS audit programs.2 The actual average audit hours DHHS billed to NASA for the nine
selected proposal audits were almost 100-percent (228 actual hours as compared to 117
planned hours) higher than the hours planned in DHHS audit programs (see Appendix C).
The DHHS actual audit hours also exceeded average DCAA audit hours charged to NASA
for similar work (see Appendix D). We were unable to determine a specific single cause for
the differences in actual and planned audit hours (see Appendix E for the evaluation of
sampled audits) or the differences between DHHS and DCAA hours. We also noted that
DCAA billing rates exceeded DHHS rates. DHHS auditors generally did not perform risk
assessments to limit the amount of audit work necessary. In addition, NASA had limited
controls to identify and minimize audit costs. For example, audit results were not always
tailored to specific information required by the contracting officer, and NASA did not have a


1
  A proposal audit is an assessment of both the proposal (offer) and the offeror’s ability to successfully
accomplish the prospective contract.
2
  DHHS audit guidance planned for the auditors to complete a proposal audit within 10 to 30 staff days (80 to
240 hours).
central system to monitor,3 coordinate, and evaluate requested and self-initiated audits
performed by DHHS for the Agency. Therefore, NASA could reduce the costs of some
reimbursable DHHS audit services.

Background

In October 1997, NASA made an interagency agreement with the DHHS Office of Inspector
General to provide audit services at educational institutions and nonprofit organizations under
DHHS cognizance.4 The interagency agreement was in effect through September 30, 1998,
and may be renewed annually by mutual consent of both parties.5 DHHS performs audits for
NASA on a cost-reimbursable basis. In addition to audits requested by NASA users,6 DHHS
initiates audits7 and bills NASA for audit costs, which DHHS proportionately allocated to all
participating Federal awards.

DCAA also provides various types of audit services8 to NASA on a reimbursable basis9 at
NASA contractor locations. For FY 1998, NASA paid DCAA an estimated $15 million for
audit services. The Economy Act of 1932,10 Office of Federal Procurement Policy Policy
Letter 78-4,11 and Office of Management and Budget (OMB) Circular A-13312 provide the
authority for DHHS and DCAA to bill for audit services.

Most proposal audits requested by NASA involved cost-reimbursement type contracts.13 As
stated in the DCAA Contract Audit Manual, a price proposal audit for a cost-type contract
will generally involve a low risk of overstatement because the contractor will be paid its
incurred costs under the contract as long as they are allowable, allocable, and reasonable.



3
  Audit Report Number IG-99-002, “Department of Health and Human Services Audit Services Provided to
NASA,” December 16, 1998.
4
   “A cognizant agency” means a Federal awarding agency that provides the predominant amount of direct
funding to a recipient unless the Office of Management and Budget designates a specific cognizant agency for
an audit assignment. The cognizant agency is also responsible for negotiating and approving facilities and
administrative rates for an educational institution for all Federal agencies.
5
  NASA is awaiting our review results before signing the FY 1999 agreement.
6
  NASA-requested audits include proposals and contract closing audits.
7
  Self-initiated DHHS audits are those not specifically requested by NASA and include Cost Accounting
Standards disclosure statement reviews and compliance with laws and regulations audits.
8
  Such services include proposal evaluations; incurred cost reviews; reviews of contractor estimating,
accounting, and purchasing systems; defective pricing reviews; and reviews for compliance with cost
accounting standards.
9
  “Agreement between the National Aeronautics and Space Administration (NASA) and the Department of
Defense (DoD) for Reimbursing DoD for Contract Administration, Contract Audit and Related Support
Services Provided in Support of NASA Contracts,” August 14, 1992.
10
   Economy Act of 1932, 31 USC 1535, “Agency Agreements.”
11
   Policy Letter 78-4, “Field Contract Support Cross-Servicing Program,” August 8, 1978.
12
   OMB Circular 133, “Audits of States, Local Governments, and Non-Profit Organizations,” revised
June 24, 1997.
13
   Cost-reimbursement type contracts provide for payment of allowable incurred costs, to the extent prescribed
in the contract.


                                                      2
This report is the second on DHHS audit services provided to NASA. A summary of our first
report is in Appendix B.

Comparison of Work Performed

The audit objectives and guidance in the DHHS audit programs for the sampled proposal
audits were similar to DCAA’s audit objectives and guidance for proposal audits (see
Appendix E). The objectives included determining the reasonableness and allowability of
proposed costs, reviewing bid estimation procedures, and making a limited assessment of the
auditee’s internal control structure. The DHHS and DCAA audit guidance for the review of
proposed costs included the following steps:

           •    Verify the salaries and wages of personnel scheduled to work on the proposal with
                current salary rates.

           •    Determine that proposed fringe benefits rates are consistent with approved rates or
                that fringe benefit methodology has been consistently applied.

           •    Verify proposed, indirect rates against approved rates, and determine the bases for
                their use.

           •    Determine the nature and basis of material costs, and verify those costs with
                catalog prices, vendor quotes, and historical records.

The working papers for the nine sampled DHHS audits identified a total of $3 million in
questioned costs that amounted to an average 4 percent14 of the $72 million costs reviewed
(see Appendix C).

We were unable to determine the specific cause for the differences in actual and planned audit
hours. However, we identified one factor that may have contributed to DHHS actual hours
exceeding planned hours.

DHHS auditors generally did not perform risk assessments to limit work and review time. In
six of the nine sampled proposal audits, the auditors reviewed all line items in the proposal and
all supporting information provided by the universities. The DCAA Contract Audit Manual
states, “Audit requests which require auditors to spend an inordinate amount of time reporting
their findings by line item do not usually result in an economical use of audit resources.” The
DCAA manual also requires the auditor to document the risk assessment and scope
determination for proposals costing under $5 million. DHHS audit guidance does not have a
comparable requirement. Furthermore, in one of the proposal audits, the NASA contracting
officer requested only a direct labor rate verification, but the DHHS auditor performed and
charged NASA for a full audit, which included direct labor, fringe benefits, and indirect rates.
The indirect rates were already provided to the contracting officer by another DHHS office.

14
     Questioned costs for the nine audits ranged from 0 percent to 13 percent per audit.


                                                         3
In addition, NASA negotiated a total amount for reimbursement of DHHS audit services but
did not segregate the funds between requested and self-initiated audits. Consequently, NASA
had no funding limit to control amounts expended for those audits. Negotiating separate
amounts for NASA-requested and DHHS-initiated audits would provide NASA better control
over resources and help ensure that expenditures for audit services more directly benefit
Agency programs. While NASA should not unilaterally seek to limit the scope and objectives
of self-initiated audits because of the potential effect on audit independence, working with
DHHS through the negotiation process and on a routine basis should ensure that limited audit
resources are focused on the highest risk audit areas. Additionally, NASA should work with
DHHS to provide additional amounts for audit services where appropriate and necessary.

For the nine NASA-requested proposal audits, NASA spent $61,000 more in DHHS audit
services cost than the DHHS planned-for cost (see Appendix C). Further, these audits cost more
than the average cost DCAA has charged for similar proposal audits (see Appendix D).

Recommendations for Corrective Action

1. We recommend that the NASA Associate Administrator for Procurement require NASA
contracting officers to tailor future DHHS audit requests to specific areas of interest, and
where appropriate, request DHHS auditors to perform and report the results of risk
assessments on specific audits.

2. We recommend that the NASA Chief Financial Officer negotiate with DHHS separate
reimbursement amounts for requested and self-initiated audits.

Management’s Comments

Concur. Regarding recommendation 1, over the next 6 months, the Office of Procurement
Associate Administrator will develop guidance for the Center Procurement Offices to tailor future
audit requests to specific areas of interest. As to the areas of risk assessments, guidance will be
deferred until negotiations with DHHS take place and the Office of Procurement Associate
Administrator can determine whether the performance and reporting of risk assessments are
feasible.

Regarding recommendation 2, the Office of Procurement Associate Administrator will include
provisions for separate reimbursement amounts for requested and self-initiated audits in the
agreement as well as other provisions to allow for complete oversight of DHHS’s work, including
the Office of Procurement’s review and approval of DHHS’s billings to NASA. The complete
text of the comments is in Appendix F.

Evaluation of Response

The planned actions are responsive to the recommendations.



                                               4
                        Appendix A. Objective, Scope and Methodology

Objective

The overall objective of the audit was to evaluate the reasonableness of the DHHS billings to
NASA.

Scope and Methodology

We performed detailed audit work at a total of four DHHS regional offices in Kansas City,
San Francisco, Boston, and Philadelphia.

We judgmentally selected and reviewed nine DHHS proposal audits and one Cost
Accounting Standards (CAS) disclosure statement audit.15 We selected the nine proposal
audits based on audit hours that exceeded 100 hours. Also, seven of the proposal audits
were selected because of concerns raised by the NASA Office of Procurement. For each
audit, we examined the audit programs, scope of work, and related working papers. We
compared actual DHHS hours charged with DHHS planned hours. We then interviewed
DHHS audit managers and auditors-in-charge at the four DHHS office locations to
determine the causes for the differences between actual and planned hours.

To analyze the justifications for the hours charged, we reviewed DCAA audit programs to
compare them to DHHS audit programs on similar audits. We interviewed DCAA
auditors and obtained DCAA budgeted and actual hours charged for proposal and CAS
disclosure statement audits. We also evaluated DCAA FY 1997 proposal audit hours
charged to NASA and obtained an average hourly charge per audit. In addition, we
reviewed two proposal audits performed by DCAA auditors and compared the actual
hours the auditors charged with DCAA budgeted hours.




15
  Certain NASA contractors are required to disclose their cost accounting practices to the Agency in a Cost
Accounting Standards Board (CASB) statement. During the period audited, DHHS charged NASA for four
CAS disclosure statement reviews. The time charges for the reviews ranged from 109 to 222 hours. We
selected one of the four reviews with an average time charge of 152 hours. DHHS did not estimate planned
hours for the review.




                                                      5
Appendix A


Management Controls

We reviewed the FY 1998 interagency agreement and FY 1999 proposed agreement between
NASA and the DHHS, applicable NASA procedures and guidance, and applicable OMB Circulars
to identify applicable management controls and to verify that the controls were working as
described. The results of the review are presented in our prior audit report (see Appendix B).

Audit Field Work

We performed the audit field work from October through February 1999. We conducted the
audit in accordance with generally accepted government auditing standards.




                                            6
       Appendix B. Audit Report on Department of Health and Human Services Audit
                              Services Provided to NASA


Audit Report Number IG-99-002, “Department of Health and Human Services Audit Services
Provided to NASA,” December 16, 1998, states that NASA can improve monitoring and
evaluating of DHHS audits by incorporating references to current regulations and an access to
records clause in the DHHS proposed interagency agreement for FY 1999. Further, NASA
should ensure that DHHS submits copies of audit reports to NASA in order for the Agency to
adequately perform oversight responsibilities over educational institutions and non-profit
organizations. Agency management concurred in the report, and planned corrective actions
will be completed if NASA elects to obtain future audit services from DHHS.16




16
     NASA is awaiting the results of this current audit before signing a future agreement.




                                                         7
                                              Appendix C. Comparison of DHHS Actual Audit Hours and Costs
                                                           to DHHS Planned Hours and Costs

                                                                                                   (a)             (b)               (c)              (d)           (e)
    No.         DHHS            Type of Audit       Dollars        Dollars       Percent of        DHHS           Cost            DHHS              Cost         Difference
              Assignment                           Reviewed       Questioned     DHHS Cost         Actual        Charged          Planned         Estimated       (b) – (d)
               Number                                                            Questioned        Hours                           Hours              @
                                                                                                  Charged                                         $60.74/hr1
    1      A-01-97-04003           Proposal        $5,113,755        $630,636            12%             402       $24,377                240        $14,578         $9,800
    2      A-01-97-04006           Proposal          $596,269         $30,160             5%             223       $13,523                 96          $5,831        $7,692
    3      A-03-97-04007           Proposal        $1,630,938        $173,217            11%             268       $16,252                240        $14,578         $1,674
    4      A-07-97-04292           Proposal        $6,416,672        $842,114            13%             176       $10,673                 80          $4,859        $5,813
    5      A-07-97-04293           Proposal       $28,466,801        $186,660             1%             233       $14,129                 80          $4,859        $9,270
    6      A-07-97-04306           Proposal        $1,554,273         $12,044             1%             151        $9,157                 80          $4,859        $4,297
    7      A-07-98-04311           Proposal       $24,163,024      $1,159,814             5%             176       $10,882                 80          $4,859        $6,023
    8      A-09-97-04009           Proposal        $3,037,175               0             0%             278       $16,858                 80          $4,859       $11,999
8




    9      A-09-97-04012           Proposal          $974,675               0             0%             149        $9,035                 80          $4,859        $4,176
              Subtotal                            $71,953,582      $3,034,645             4%           2,056      $124,885              1,056        $64,141        $60,744
          Average Proposal    Hours/Cost                                                                 228       $13,876                117          $7,127
    10     A-08-98-00931      CAS Disclosure                                                            1522        $9,213      No Estimate3
                              Statement Audit
              Total Audit                                                                               2,208     $134,098
                Hours
          1
            Column (b) divided by column (a) to obtain the hourly rate of $60.74.
          2
            NASA’s 6-percent share of 2,533 total hours charged by DHHS auditors for this audit. The remaining hours were allocated to other Federal agencies.
          3
            The audit guide or assignment sheet did not provide estimated hours for completion of this audit.
                                     Appendix D. Comparison of DHHS Actual Audit Hours and Costs
                                                to DCAA Actual Audit Hours and Costs

                                                             (a)                  (b)                  (c)               (d)               (e)
                    DHHS                Type of          DHHS Hours              NASA             DCAA FY 97          DCAA             Difference
        No.   Assignment Number          Audit            Charged to              Cost              Average             Cost            (b) - (d)
                                                            NASA                                Hours1 Charged to   $69.192 x (c)
                                                                                                     NASA
        1       A-01-97-04003           Proposal                      402             $24,377                  61            $4,221           $20,157
        2       A-01-97-04006           Proposal                      223             $13,523                  61            $4,221            $9,302
        3       A-03-97-04007           Proposal                      268             $16,252                  61            $4,221           $12,031
        4       A-07-97-04292           Proposal                      176             $10,673                  61            $4,221            $6,452
        5       A-07-97-04293           Proposal                      233             $14,129                  61            $4,221            $9,909
        6       A-07-97-04306           Proposal                      151              $9,157                  61            $4,221            $4,936
        7       A-07-98-04311           Proposal                      176             $10,882                  61            $4,221            $6,661
        8       A-09-97-04009           Proposal                      278             $16,858                  61            $4,221           $12,637
        9       A-09-97-04012           Proposal                      149              $9,035                  61            $4,221            $4,815
9




                   Subtotal                                         2,056            $124,885                 549           $37,985           $86,900
               Average Proposal   Hours/Cost                          228             $13,876                  61            $4,221

        10      A-08-98-00931       CAS Disclosure                    152              $9,213                 503             $3,460           $5,753
                                    Statement audit
              Total Audit Hours                                     2,208            $134,098                599            $41,445           $92,653

    1
      Source: DCAA FY 1997 (October 1996 through March 1997) proposal audits charged to NASA.
    2
      As of September 19, 1997, NASA negotiated with DCAA a $69.19 hourly rate for audit services.
    3
      DCAA actual hours charged to NASA for an FY 1997 CAS disclosure statement audit.
                              Appendix E. Comparison of DHHS and DCAA Audit Objectives and Hours

        DHHS          Grantee or Contractor      Number of DHHS DHHS                         Objective                              Comments
      Assignment            Audited                DHHS     Hours   Actual           Per DHHS Audit Report                On the Audit Objective and Hours
       Number                                     Assigned Planned Hours
                                                  Auditors         Billed to
                                                                    NASA
     A-01-97-04003 University of Massachusetts        2      240     402     (1) Determine      reasonableness     and    This is a cost-reimbursement
                   Lowell - Subcontract under                                    allowability of proposed direct costs,   proposal. The same audit objective
                   Contract NAS5-96020                                           fringe benefit costs, overhead costs,    was used for the two phases of the
                   Proposal Cost :                                               and escalation factors.                  proposal.
                   1st Phase $3,633,207                                      (2) Review bid estimate procedures.
                   2nd Phase 1,480,548                                       (3) Determine whether the proposed           The DCAA audit objective is similar
                     Total $5,113,755                                            costs were supported by current,         to DHHS’s objective in the evaluation
                                                                                 complete, and accurate cost and          of the estimates to determine whether
                                                                                 pricing data.                            the proposal is acceptable for
                                                                                                                          negotiation of a fair and reasonable
                                                                                                                          price. According to the DCAA FY
                                                                                                                          1998 program plan, for proposals
                                                                                                                          costing from $5 to $50 million, the
10




                                                                                                                          DCAA standard audit hours would be
                                                                                                                          64 hours. For FY 1997 proposal
                                                                                                                          audits, DCAA charged NASA an
                                                                                                                          average 61 hours.

     A-01-97-04006 University of New                 1         96        223    Determine       reasonableness     and    The contracting officer requested only
                   Hampshire –                                                  allowability of the $596,269 proposed     direct labor rate verification on this
                   Pre-Award Audit                                              direct labor costs. Compare proposed      cost-reimbursable proposal. The
                   NAS5-96063                                                   direct labor rates to current approved    auditor did not have prior experience
                   Proposal Cost:                                               rates.                                    auditing a proposal.
                   $1,385,845
                                                                                                                          The DCAA audit objective is similar
                                                                                                                          to DHHS’s objective in the
                                                                                                                          verification of the labor rates
                                                                                                                          estimates. According to the
     Appendix E

        DHHS          Grantee or Contractor    Number of DHHS        DHHS                     Objective                                Comments
      Assignment             Audited            DHHS       Hours     Actual            Per DHHS Audit Report              On the Audit Objective and Hours
       Number                                  Assigned   Planned    Hours
                                               Auditors             Billed to
                                                                     NASA
                                                                                                                          DCAA FY 1998 program plan, for
                                                                                                                          proposals costing from $.5 million to
                                                                                                                          $1 million, DCAA standard audit
                                                                                                                          hours would be 29 hours.

     A-03-97-04007 University of Maryland         2        240        268       Determine whether the proposed costs      This is a cost-reimbursement
                   Bid and Proposal Audit                                       are reasonable and allowable under the    proposal. The DCAA audit objective
                   NAS5-96020                                                   terms of the proposal and in accordance   is similar to DHHS’s objective in the
                   Proposal Cost: $1,630,938                                    with OMB Circulars A-21 and A-110.        evaluation of the estimates to
                                                                                                                          determine whether the proposal is
                                                                                                                          acceptable for negotiation of a fair
                                                                                                                          and reasonable price. According to
                                                                                                                          the DCAA FY1998 program plan, for
                                                                                                                          proposals costing from $1million to
11




                                                                                                                          $5 million, the DCAA standard audit
                                                                                                                          hours would be 42 hours.

     A-07-97-04292 University of Colorado         3         80        176       Analysis of proposed costs and            This is a cost-reimbursement
                   NAS5-3246B                                                   supporting documentation to determine     proposal. The DCAA audit objective
                   Proposal Cost: $6,416,672                                    whether the costs were supported and      is similar to DHHS’s objective in the
                                                                                allocable and allowable in accordance     evaluation of the estimates to
                                                                                with applicable regulations.              determine whether the proposal is
                                                                                                                          acceptable for negotiation of a fair
                                                                                                                          and reasonable price. According to
                                                                                                                          the DCAA FY 1998 program plan,
                                                                                                                          for proposals costing from $5 million
                                                                                                                          to $50 million, the DCAA standard
                                                                                                                          audit hours would be 64 hours.
     Appendix E


        DHHS          Grantee or Contractor      Number of DHHS       DHHS                   Objective                               Comments
      Assignment             Audited              DHHS       Hours     Actual           Per DHHS Audit Report           On the Audit Objective and Hours
       Number                                    Assigned   Planned    Hours
                                                 Auditors             Billed to
                                                                       NASA
     A-07-97-04293 University of Colorado           5         80        233     Analysis of proposed costs and          This is a cost-reimbursement
                   NAS5-02803-30A                                               supporting documentation to determine   proposal. Although the cost proposed
                   Proposal Cost: $118,538,007                                  whether the costs were supported and    was $118,538,007, DHHS audited
                                                                                allocable and allowable in accordance   only $28,466,801 because the
                                                                                with applicable regulations.            proposed subcontract cost did not fall
                                                                                                                        under DHHS audit cognizance.
                                                                               The auditor did not review proposed
                                                                               subcontract costs of $87,976,431 and The DCAA audit objective is similar
                                                                               other costs of $2,094,775. The total to DHHS’s objective in the evaluation
                                                                               amount reviewed was: $28,466,801     of the estimates to determine whether
                                                                                                                    the proposal is acceptable for
                                                                                                                    negotiation of a fair and reasonable
                                                                                                                    price. According to the DCAA FY
12




                                                                                                                    1998 program plan, for proposals
                                                                                                                    costing from $5 million to $50
                                                                                                                    million, the DCAA standard audit
                                                                                                                    hours would be about 64 hours.

     A-07-97-04306 University of Colorado           2         80        151    Analysis of proposed costs and           This is a cost-reimbursement
                   NAS5-97145                                                  supporting documentation to determine    proposal. The DCAA audit objective
                   Proposal Cost: $1,554,273                                   whether the costs were supported and     is similar to DHHS’s objective in the
                                                                               allocable and allowable in accordance    evaluation of the estimates to
                                                                               with applicable regulations.             determine whether the proposal is
                                                                                                                        acceptable for negotiation of a fair
                                                                                                                        and reasonable price. According to
                                                                                                                        the DCAA FY 1998 program plan,
                                                                                                                        for proposals costing from $1million
                                                                                                                        to $5 million, the DCAA standard
                                                                                                                        audit hours would be 42 hours.
     Appendix E


        DHHS          Grantee or Contractor     Number of DHHS DHHS                        Objective                            Comments
      Assignment            Audited               DHHS     Hours   Actual           Per DHHS Audit Report             On the Audit Objective and Hours
       Number                                    Assigned Planned Hours
                                                 Auditors         Billed to
                                                                   NASA
     A-07-98-04311 University of Colorado            2       80     176     Analysis of proposed costs and           This is a cost-reimbursement
                   Request for Proposal No.                                 supporting documentation to determine    proposal. The DCAA audit objective
                   RFP5-977242                                              whether the costs were supported and     is similar to DHHS’s objective in the
                   Proposal Cost: $24,163,024                               allocable and allowable in accordance    evaluation of the estimates to
                                                                            with applicable regulations.             determine whether the proposal is
                                                                                                                     acceptable for negotiation of a fair
                                                                                                                     and reasonable price. According to
                                                                                                                     the DCAA FY1998 program plan, for
                                                                                                                     proposals costing from $5 million to
                                                                                                                     $50 million, the DCAA standard
                                                                                                                     audit hours would be 64 hours.

     A-08-98-00931 Colorado State University        4        50       152    Determine the adequacy and compliance The audit, required by a May 1996
13




                   Cost Accounting Standards                                 of the University’s DS-2 with CAS and revision to the Code of Federal
                   Board Disclosure Statement                                the requirements of OMB Circular A-21. Regulations, was thorough. The total
                   Review                                                                                           hours charged by the senior auditor
                                                                                                                    and three staff auditors totaled about
                                                                                                                    2,500 hours. DHHS allocated 6
                                                                                                                    percent of those hours to NASA.

                                                                                                                     The DCAA audit objective is similar
                                                                                                                     to DHHS’s in the review of the
                                                                                                                     contractor’s initial and revised
                                                                                                                     disclosure statement for adequacy and
                                                                                                                     compliance with Cost Accounting
                                                                                                                     Standards      and     the    Federal
                                                                                                                     Acquisition Regulation.
     Appendix E


        DHHS          Grantee or Contractor      Number of DHHS DHHS                        Objective                             Comments
      Assignment            Audited                DHHS     Hours   Actual            Per DHHS Audit Report             On the Audit Objective and Hours
       Number                                     Assigned Planned Hours
                                                  Auditors         Billed to
                                                                    NASA
                                                                                                                     According to the DCAA FY1998
                                                                                                                     program plan, the DCAA standard
                                                                                                                     audit hours would be 58 hours. In FY
                                                                                                                     1997, DCAA charged NASA 50
                                                                                                                     hours for a similar audit.
     A-09-97-04009 University of California at       3        80      278      The period of performance for this This is a cost-reimbursement
                   Berkeley Space Science                                      contract is from June 1997 to January proposal. The contracting officer
                   Laboratory                                                  2000.                                 agreed to an audit of the expenses for
                   Subcontract                                                                                       only the first year of contract
                   Proposal Cost: $3,037,175                                                                         performance. The audit consisted of
                                                                                                                     reviewing         the       supporting
                                                                                                                     documentation for salary rates,
                                                                                                                     related fringe benefits rates, supplies
14




                                                                                                                     and equipment and travel costs, and
                                                                                                                     indirect rates. A junior auditor
                                                                                                                     (trainee) was assigned to perform this
                                                                                                                     audit. The DCAA audit objective is
                                                                                                                     similar to DHHS’s objective in the
                                                                                                                     evaluation of the estimates to
                                                                                                                     determine whether the proposal is
                                                                                                                     acceptable for negotiation of a fair
                                                                                                                     and reasonable price. According to
                                                                                                                     the DCAA FY 1998 program plan,
                                                                                                                     for proposals costing from $1 million
                                                                                                                     to $5 million, the DCAA standard
                                                                                                                     audit hours would be 42 hours.
     Appendix E



        DHHS           Grantee or Contractor     Number of DHHS DHHS                        Objective                              Comments
      Assignment             Audited               DHHS     Hours   Actual           Per DHHS Audit Report               On the Audit Objective and Hours
       Number                                     Assigned Planned Hours
                                                  Auditors         Billed to
                                                                    NASA
     A-09-97-04012 University of California at        3       80     149     Analysis of proposed costs and             This is a cost-reimbursement
                   Berkeley Space Science                                    supporting documentation to determine      proposal. The contracting officer
                   Laboratory                                                whether the costs were supported and       agreed to an audit of the expenses for
                   Subcontract                                               allocable and allowable in accordance      only the base year of contract
                                                                             with applicable regulations. The period    performance.       The      supporting
                    Proposal Cost:                                           of performance for this contract is from   documentation for salary rates,
                    $2,708,726                                               February 2000 to January 2003.             related fringe benefits rates, supplies
                                                                                                                        and equipment and travel costs, and
                                                                               Cost reviewed by the auditors: $974,675. indirect rates were mostly identical to
                                                                               The auditor did not evaluate $180,948 of the documentation provided in audit
                                                                               subcontract costs.                       number A-09-97-04009 above. The
                                                                                                                        majority of working papers consisted
15




                                                                                                                        of copies of the same supporting
                                                                                                                        documentation in audit number
                                                                                                                        A-09-97-04009 above. The junior
                                                                                                                        auditor (trainee) assigned to this
                                                                                                                        review was the same one assigned to
                                                                                                                        audit number A-09-97-04009 above.

                                                                                                                         The DCAA audit objective is similar
                                                                                                                         to DHHS’s objective in the evaluation
                                                                                                                         of the estimates to determine whether
                                                                                                                         the proposal is acceptable for
                                                                                                                         negotiation of a fair and reasonable
                                                                                                                         price. According to the DCAA FY
                                                                                                                         1998 program plan, for proposals
                                                                                                                         costing from $1 million to $5 million,
                                                                                                                         the DCAA standard audit hours
                                                                                                                         would be 42 hours.
Appendix F. Management Response




              16
Appendix F




             17
Appendix F




             18
                           Appendix G. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

Code A/Administrator
Code AI/Associate Deputy Administrator
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code C/Associate Administrator for Headquarters Operations
Code G/General Counsel
Code H/Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code P/Associate Administrator for Public Affairs
Code Q/Associate Administrator for Safety and Mission Assurance
Code R/Associate Administrator for Aero-Space Technology
Code S/Associate Administrator for Space Science
Code U/Associate Administrator for Life and Microgravity Sciences and Applications
Code Y/Associate Administrator for Earth Science
Code Z/Associate Administrator for Policy and Plans

NASA Center

Chief Counsel, Kennedy Space Center

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
John H. Glenn Research Center at Lewis Field
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center



                                            19
Appendix G

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting
   Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                             20
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Anh Doan, Auditor-in-Charge

Van Tran, Auditor

Nancy C. Cipolla, Report Process Manager
